              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                        Report No. WR-VS-BIA-0005-2012
                                                                                           July 16,2012

Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office of Financial Management

From:          Mic?ael P. Colombo
               Regwnal Manager
                                            /J /. j} /J /' ~
                                          (__/j:t VV\.. / ;?e;(~Jvu {Gv
Subject:       Verification Review of Recommendations from our February 2009 Flash Report,
               "BIA Alaska Regional Indian Reservation Roads Program Rife with
               Mismanagement and Lacking Program Oversight" (Report No. WR-IV-BIA-
               0001-2009)

        The U.S. Department of the Interior (DOl) Office oflnspector General (OIG) has
completed a verification review of the seven recommendations presented in the subject flash
report. The objective of the verification review was to determine whether the Bureau of Indian
Affairs (BIA) implemented the recommendations as reported to the Office of Financial
Management (PFM), Office of Policy, Management and Budget. PFM reported to OIG that BIA
had implemented each of the seven recommendations in the subject report and provided
supporting documentation. As a result, the flash report was effectively closed September 8, 2011.
Based on our verification, we consider six of the seven recommendations resolved and
implemented and the seventh recommendation resolved, but not implemented.

Background

        The Indian Reservation Roads Program (Roads Program) is a part of the Federal Lands
Highway Program established in 23 U.S.C. § 204 to address transportation needs of Tribes. The
Roads Program provides funds for the planning, design, construction, or reconstruction of
tribally designated public transportation facilities that provide access to or within Indian
reservations, Indian lands, Indian communities, and Alaska Native villages. BIA and Federal
Highway Administration's (FHW A) Federal Lands Highway Office jointly administer the
program and annual Department of Transportation (DOT) appropriations fund the Roads
Program. The 1982 Surface Transportation Assistance Act established the Federal Lands
Highway Program that provides the funding for Roads Program projects from the Highway Trust
Fund. In 1936, the FHWA began approving the location, type, and design of all Roads Program
roads and bridges to be constructed using BIA funds. As most Roads Program contracts are
administered under the provisions of the Indian Self-Determination Act (P.L. 93-638), the
entities are responsible for the daily administration of the contracts. BIA, however, is tasked with
oversight and administration of the program.



                         Office of Audits, Inspections, and Evaluations I Sacramento, CA
       The results of a 2008 DOT report 1 and a separate DOI-OIG investigative hotline
complaint prompted our 2009 flash report, " BIA Alaska Regional Indian Reservation Roads
Program Rife with Mismanagement and Lacking Program Oversight." All of these reviews
pointed to the same fundamental problem: The Alaska Regional Office (Region) faced a
multitude of unique challenges that greatly affected the administration of the Roads Program,
including a lack of oversight and management. Our immediate flash report, which was issued on
February 9, 2009, contained seven recommendations relating to the mismanagement and lack of
program oversight of Alaskan Native community roads projects.

        In a memorandum dated March 20, 2009, BIA provided a list of corrective actions
associated with the findings and recommendations in the OIG flash report that was issued in
February 2009. Based on the information in this response, we considered Recommendations 1, 2,
and 7 resolved but not yet implemented and Recommendations 3, 4, 5, and 6 neither resolved nor
implemented. On May 6, 2009, we referred the four unresolved recommendations to PFM for
resolution and implementation tracking. Subsequently, PFM reported that all recommendations
had been implemented (memorandums dated September 30, 2010 and September 8, 20 11 ). The
flash report was closed.

       FHW A and BIA conducted a follow-up review of the BIA Roads Program at the Region.
They conducted the review during the week of July 18, 2011 and issued a report in October
2011. FHWA and BIA determined that the recommendations from the 2008 DOT report had
been implemented, pending completion of a business plan that was expected to be completed in
January 2012.

Scope and Methodology

       The scope ofthis review was limited to determining whether BIA took action to
implement the recommendations. To accomplish our objective, we reviewed the supporting
documentation that BIA officials provided and discussed actions taken relating to each of the
seven recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether the
underlying deficiencies that were initially identified have actually been corrected. As a result,
this review was not conducted in accordance with the "Generally Accepted Government
Auditing Standards" issued by the Comptroller General of the United States or the "Quality
Standards for Inspections ofthe Council of the Inspectors General on Integrity and Efficiency."

Results of Review

        Our current review found that BIA has implemented six of the seven OIG recommendations
and that all recommendations have been resolved.



1
 " Indi an Reservation Roads Program Review, Bureau of Indian Affairs Alaska Region, Federa l lands Highway
Program," Department of Transportation, 2008.

                                                        2
Recommendation 1: Develop and implement a reporting and monitoring program for all
aspects of the program to ensure that it is administered in accordance with all applicable
laws and regulations.

Action Taken: The BIA Alaska Regional Road Supervisor confirmed that Tribes on self-
determination contracts are required to provide quarterly reports on the status of their
contracts and are notified when delinquent. According to the Road Supervisor, payments
and drawdowns are withheld ifreporting is not up to date. Monitoring visits are
conducted as necessary. A Roads Program follow-up review in October 2011 confirmed
this action and was used as support for closing the recommendation.

According to the review, the Indian Reservation Roads Integrated Information System
(IRRIIS) reports and tracks all needed aspects ofthe Roads Program. The IRRIIS system
now allows the Region to accomplish real-time program management, run a multitude of
various status reports, measure program execution, and provide up-to-date information on
project, contract, and financial actions needed.

In a meeting held on May 3, 2012, we agreed that if the Region crafted a policy
document signed by the Regional Director outlining construction project review practices
and procedures for construction projects, we would consider Recommendation 1 closed.
We emphasized that such a policy should include monitoring of lower risk projects so
that no Tribes or construction projects are routinely eliminated from the monitoring
program. On May 17, 2012, BIA provided a Policy on Alaska Region Indian Reservation
Roads Construction Monitoring that includes monitoring of lower risk projects.

After reviewing the available documentation, we conclude that Recommendation 1 has
been resolved and implemented.

Recommendation 2: Conduct periodic program and progress reviews of Alaskan Native
Government operations to ensure that [Roads Program] funds are being admi nistered in
accordance with contract requirements.

Action Taken: In an email dated April19, 2012, the BIA Alaska Regional Road
Supervisor stated that the Region conducted six program/process reviews that were
attended by BIA Transportation and Self-Determination staff from March 2009 to
October 2009. In addition, the Region has completed approximately 30 partial program
reviews. Tribes conducted program/process reviews during the Annual BIA Provider's
Conference in November 2010, and three on-site program reviews were also completed
during calendar year 2011. The October 2011 Roads Program follow-up review,
conducted by FHW A and BIA, confirmed this action, which was used as support for
closing the recommendation. This follow-up review report concluded that the Region
conducted 25 reviews in 2009 and several additional reviews since then.

Although these reviews are considered to be more project specific as opposed to process
related, the Region has agreed to enhance their reviews to be more programmatic in
nature and will include process reviews of planning, design, contracting, construction,


                                         3
and financial management. It is also planned for the Region to track the implementation
status of the program review recommendations through IRRIIS.

After reviewing the available documentation, we conclude that Recommendation 2 has
been resolved and implemented.

Recommendation 3: Conduct periodic site visits to verify that completed projects were
constructed in accordance with approved plans and specifications.

Action Taken: The BIA Chief, Division of Transportation provided us with trip reports
and a preconstruction checklist. These reports demonstrate that Tribes are being visited to
ensure that Roads Program funds are being administered in accordance with contract
requirements and that projects are constructed in accordance with the plans and
specifications. The BIA Alaska Regional Road Supervisor stated that site visits are
dictated primarily by two factors: either the Tribe has an active construction project
underway that must be inspected or the Tribe's program is failing and requires an on-site
review. Tribes may also self-identify failure or an urgent need for technical assistance
and request a site visit. According to the Road Supervisor, a construction tracking report
is used to monitor construction, and a final onsite inspection is conducted before
construction contracts are closed.

After reviewing the available documentation, we conclude that Recommendation 3 has
been resolved and implemented.

Recommendation 4: Increase monitoring of overtime usage by staff during peak
delivery cycles and develop overtime thresholds for early detection of potential fraud and
abuse of overtime via detail logs, details of activities, or other evidence of overtime
efforts.

Action Taken: According to the FHWA and BIA follow-up review from October 20 II ,
the Region instituted procedures to avert any repetition of potential fraud or overtime
abuse. An "Overtime and Compensatory Time" procedure is now in place for the Region,
which requires three authorizing signatures and prior authorization of any overtime
worked. The overtime for the entire Alaska Region Transportation Program has been
reduced by over 55 percent over the past 2 years.

After reviewing the available documentation, we conclude that Recommendation 4 has
been resolved and implemented.

Recommendation 5: Revisit management decisions and determine costs and benefits of
using furlough positions since some of these wage-grade employees are being
compensated 40 percent higher than GS-12s and 13s.

Action Taken: According to the FHWA and BIA follow-up review from October 2011,
the Region no longer provides equipment for projects, and has donated the equipment to
the Tribes according to Indian Affairs procedures, thereby eliminating the need for this


                                         4
function. In addition, Regional transportation staff now monitor Tribal projects with point
of contact engineers and technicians, rather than construction wage-grade employees.

Decommissioning the equipment pool and the cooperative construction program
eliminated the furlough positions upon which this finding was primarily based. The
decommissioning of the equipment pool commenced in January 2010 and was completed
in July 20 11.

After reviewing the available documentation, we conclude that Recommendation 5 has
been resolved and implemented.

Recommendation 6: Initiate innovative recruitment efforts to fill existing vacancies.

Action Taken: PFM's September 30, 2010 memorandum to OIG reported that all
vacancies were filled or selections had been made. During our verification review, we
found that the Region is still unable to fill existing vacancies. The BIA Chief, Division of
Transportation confirmed that all positions are not filled and that the Region continues to
experience a high rate of turnover. Of the 30 current positions, 16 are filled and 16 people
have departed in the previous 24 months. The FHWA program review reported that the
staffing level is the prime issue remaining for the Region. Currently, the Region receives
only enough Program Management and Oversight (PMO) funding to support 15 or 16
positions. The FHWA program review report stated that there remains a pressing need for
an increase in funding for the Alaska Region Branch of Transportation to restore the
optimum level of performance in fulfilling its responsibilities in managing the Roads
Program.

The report suggested that the additional funding need may be accomplished in several
ways. FHWA suggested increasing PMO amount provided to the Region, keeping in
mind, however, that the total PMO for all of the BIA regions is limited legislatively and
any increase to the Region will need to be offset by a decrease to other regions. Another
suggestion was to get funding from internal BIA sources other than the Roads Program.
Further, the report suggested marketing to Alaska Tribes for direct service work in which
project-specific accounts using the Roads Program tribal shares are set up to supplement
the PMO funding.

After reviewing available documentation and communicating with the BIA Alaska
Regional Road Supervisor, we conclude that Recommendation 6 has been resolved and
implemented. We suggest, however, the Region use some of the suggestions for funding
mentioned in the FHWA and BIA report as it continues to find ways to increase its
staffing level.

Recommendation 7: Carefully review the program before providing additional funding.

Action Taken: In a memorandum dated August 25,2011, Indian Affairs reported that the
BIA Director detailed a team of experienced Regional Road Engineers and Awarding
Officials to the Region to identify corrective actions and implement changes to program


                                         5
       delivery. The team prepared a corrective action plan based on the findings in the 2008
       DOT report and the 2009 OIG flash report. The Region also took actions beyond the
       recommendations in the flash report by hiring a management analyst and budget officer
       and developing a comprehensive database management system.

       Although BIA collaborated with FHWA to conduct a follow-up review in July 2011 that
       verified these programmatic issues had been corrected, we were unable to determine how
       BIA considered this follow-up report as completely responsive to the recommendation.

       A continuous systematic program monitoring plan with updates of all individual key
       processes and procedures is necessary to effectively study and determine the direction
       and emphasis of the program for the foreseeable future. This plan should institutionalize
       all these changes and perpetuate an environment of periodic program reassessment and
       improvement. Such a plan is still absent from the documentation provided and has not
       been developed by BIA. As such, we believe the actions completed to-date are
       insufficient to consider the recommendation resolved.

       After reviewing the available documentation and contacting BIA officials, we conclude
       that Recommendation 7 has been resolved but not implemented and will be referred to
       PFM for tracking until the continuous systematic program monitoring plan is developed.

Conclusion

       We discussed the results of this review with BIA officials at an exit conference on May 3,
2012. BIA acknowledged our findings and concerns.

cc:    Mike Black, Director, Bureau of Indian Affairs
       Nancy Thomas, DOl GAO/OIG Audit Liaison, Office of Financial Management
       Michael Oliva, Director, Office of Internal Evaluation and Assessment, Indian Affairs
       Patricia Vendzules, Management Analyst, Office oflnternal Evaluation and Assessment,
           Indian Affairs




                                                6
